      Department of Homeland Security




      National Flood Insurance Program’s Management
             Letter for FY 2011 DHS Consolidated
                  Financial Statements Audit
                         (Redacted)




OIG-12-71                             April 2012 (Revised)

                                                           Office of Inspector General

                                                           U.S. Department of Homeland Security
                                                           Washington, DC 20528




                             APR 16 2012

                                            Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report presents the National Flood Insurance Program’s Management Letter for FY
2011 DHS Consolidated Financial Statements Audit. It contains observations related to
internal control that were not required to be reported in the financial statements audit
report. The independent public accounting firm KPMG LLP (KPMG) performed the
integrated audit of DHS’ FY 2011 financial statements and internal control over financial
reporting and prepared this management letter. KPMG is responsible for the attached
management letter dated November 11, 2011 and the conclusions expressed in it. We do
not express opinions on DHS’ financial statements or internal control or provide
conclusions on compliance with laws and regulations.

The observations herein have been discussed in draft with those responsible for
implementation. We trust this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.



                                            Anne L. Richards
                                            Assistant Inspector General for Audits
NATIONAL FLOOD INSURANCE PROGRAM

         Management Letter for the

       Year Ended September 30, 2011 

                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

November 11, 2011


Office of Inspector General
U.S. Department of Homeland Security, and
Associate Administrator, Federal Insurance and Mitigation Administration
U.S. Department of Homeland Security Federal Emergency Management Agency
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011, and statement of custodial activity for the year then
ended based on the criteria established in Office of Management and Budget Circular No. 123,
Management’s Responsibility for Internal Control, Appendix A. In connection with our audit, we
also considered DHS’ compliance with certain provisions of applicable laws, regulations,
contracts, and grant agreements that could have a direct and material effect on the FY 2011
financial statements.
Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2011 financial statements and internal control over financial
reporting. In addition, the FY 2011 DHS Secretary’s Assurance Statement states that the
Department was unable to provide assurance that internal control over financial reporting was
operating effectively at September 30, 2011.
During our FY 2011 DHS audit, we noted certain matters involving the Federal Emergency
Management Agency’s (FEMA) National Flood Insurance Program (NFIP) internal control and
other operational matters that are presented for your consideration. These observations and
recommendations, all of which have been discussed with the appropriate members of
management of the named insurance companies (where applicable), FEMA’s Office of the Chief
Financial Officer, and FEMA’s Federal Insurance and Mitigation Administration, are intended to
improve internal control or result in other operating efficiencies and are summarized in Exhibit I
of this letter. These comments are in addition to the material weaknesses and significant
deficiencies presented in our Independent Auditors’ Report, dated November 11, 2011, included
in the FY 2011 DHS Annual Financial Report. The status of our prior year observations is
presented in Exhibit II.
Certain control deficiencies related to FEMA information technology (IT) controls will be
presented in a separate letter to the DHS Office of Inspector General and the FEMA Chief
Information Officer, and certain other control deficiencies related to FEMA’s internal controls
exclusive of our IT findings will be presented in a separate letter to the DHS Office of Inspector
General and the FEMA Chief Financial Officer.



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Other deficiencies in internal control, potentially including additional material weaknesses and
significant deficiencies, may have been identified and reported had we been able to apply
sufficient audit procedures to express an opinion on DHS’ internal control over financial
reporting of the FY 2011 financial statements. We aim, however, to use our knowledge of the
NFIP gained during our work to make observations and suggestions that we hope will be useful to
you.
We would be pleased to discuss these observations and recommendations with you at any time.
This report is intended for the information and use of DHS and FEMA management, the DHS
Office of Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and
the U.S. Government Accountability Office, and is not intended to be and should not be used by
anyone other than these specified parties.

Very truly yours,
                                                                                                 Exhibit I


I. BACKGROUND

The Federal Insurance and Mitigation Administration of the Department of Homeland Security (DHS)
Federal Emergency Management Agency (FEMA) manages the National Flood Insurance Program
(NFIP). Private insurance companies and the Direct Servicing Agent administer the flood insurance
policies issued through the NFIP. The insurance companies and Direct Servicing Agent write NFIP
policies, adjust flood claims, process and distribute claim payments to policyholders, and establish and
maintain loss reserves. The data associated with flood policies and claims are used to calculate estimates
included in the year-end NFIP financial statements, which are recorded in the year-end DHS financial
statements. Thus, the precision of the estimates used to reflect actual events is dependent upon the
accuracy and consistency of the underlying data submitted by the insurance companies and the Direct
Servicing Agent on a monthly basis.

II. INTERNAL CONTROL DEFICIENCIES RELATED TO CLAIMS

A. 	 Internal Control Deficiencies and Errors Identified over Claims Paid

Observation:
We selected nine insurance companies at which to perform audit procedures over claims paid for the
periods October 1, 2010 through March 31, 2011, April 1 through June 30, 2011, and July 1 through
August 31, 2011. For the nine companies selected, we tested a sample of claims paid totaling 450 items
covering the three testing periods identified above. During this testing, we noted the following internal
control deficiencies and errors:

    1)	 Based on our March 31, 2011 testwork, for two sample items, the claim payment was not
        recorded in the correct fiscal year:


                       Company          Policy Number      Date of Loss   Claim Payment
                                                           03/30/2010       $100,000
                                                           03/30/2010       $400,000

    2)	 Based on our March 31, 2011 testwork, for eight sample items, the loss reserve related to the
        claim transaction was not updated properly to reflect claim payments or additional adjustor
        reports, causing reserves to be overstated or understated:


                       Company            Policy No.       Date of Loss   Claim Payment
                                                           09/30/2010       $34,823.74
                                                           10/01/2010      $169,142.53
                                                           10/05/2010      $237,905.80
                                                           12/13/2010       $69,497.31
                                                           12/26/2010       $55,667.97


                                                           09/13/2008      $197,601.74
                                                           09/30/2010       $36,547.24



                                                    I.1

                                                                                                 Exhibit I



                       Company            Policy No.       Date of Loss   Claim Payment
                                                           10/01/2010       $417,755.32

    3) Based on our March 31, 2011 testwork, for one sample item, the deductible was not properly
       applied to a contents claim:


                       Company         Policy Number      Date of Loss    Claim Payment

                                                           09/30/2010       $6,238.15

    4) Based on our March 31, 2011 testwork, for two sample items, the claim was not properly closed
       after the policy was closed and rewritten:


                       Company         Policy Number      Date of Loss    Claim Payment
                                                           09/13/2008        $135,000
                                                           09/13/2008        $145,000

    5)	 Based on our March 31, 2011 and June 30, 2011 testwork, for four sample items, we noted that
        the claim payment made to the insured did not match the total claim payment on the final report,
        causing the insured to be underpaid or overpaid.

        March 31, 2011 Testwork Results:


                      Company          Policy Number      Date of Loss    Claim Payment
                                                           06/05/2009       $15,201.94

        June 30, 2011 Testwork Results:


                      Company         Policy Number       Date of Loss    Claim Payment
                                                          05/01/2011         $71,035.69
                                                          04/14/2011         $26,889.74
                                                          02/28/2011        $500,000.00

FEMA’s Federal Insurance and Mitigation Administration did not provide adequate oversight to ensure
claim files were processed and reviewed in accordance with NFIP guidelines before the approval and
issuance of claim payments, and to ensure the specific and consistent establishment and reporting of loss
reserves and subsequent adjustments to the loss reserves.

Recommendations:
We recommend that FEMA’s Federal Insurance and Mitigation Administration:
    1)	 Follow-up with each of the insurance companies to determine that appropriate corrective action
        has been implemented to address the exceptions noted.



                                                   I.2

                                                                                               Exhibit I

    2)	 Provide increased oversight to insurance companies participating in the NFIP to ensure claim
        files are being processed and reviewed in accordance with NFIP guidelines before the approval
        and issuance of claim payments, and to ensure the specific and consistent establishment and
        reporting of loss reserves and subsequent adjustments to the loss reserves.

B. 	 Inaccuracies in Claims’ Loss Reserves

Observation:
We selected nine insurance companies at which to perform audit procedures over the accuracy and
completeness of loss reserves established as of March 31, 2011 and August 31, 2011. For the nine
companies selected, we tested a sample of loss reserves reported as of March 31, 2011 and August 31,
2011, totaling 130 items. During this testing, we noted the following inaccuracies at the respective
insurance companies:

    1)	 Based on March 31, 2011 and August 31 testwork, for seven sample items, the loss reserve
        recorded in the insurance company’s NFIP claims system was not updated appropriately to reflect
        additional adjustor reports and/or claim payments, causing the reserves to be misstated.

        March 31, 2011 Testwork Results:


                       Company       Policy Number       Date of Loss   Loss Reserve
                                                         03/11/2011       $31,000
                                                         03/06/2011       $17,000
                                                         03/06/2011       $22,000
                                                         03/11/2011       $50,000
                                                         03/11/2011        $3,000

        August 31, 2011 Testwork Results:


                       Company        Policy Number      Date of Loss   Loss Reserve




                                                          07/18/2011       $9,000
                                                          07/19/2011     $500,000

    2) Based on March 31, 2011 testwork, for three sample items, the claim was not closed in a timely
       manner, which caused reserves to be overstated.


                       Company        Policy Number      Date of Loss   Loss Reserve
                                                          11/11/2009      $40,000
                                                          09/13/2008      $30,000
                                                          09/18/2003      $30,000



                                                  I.3

                                                                                               Exhibit I


   3)	 Based on March 31, 2011 testwork, for one sample item, the claim was closed without payment
       and then reopened in order to pay adjustor fees. However, the claim was not re-closed after the
       fees were paid, which in turn caused reserves to be overstated.


                       Company        Policy Number      Date of Loss   Loss Reserve
                                                         02/28/2011       $10,000

Recommendations:
We recommend that FEMA’s Federal Insurance and Mitigation Administration:
    1)	 Follow-up with each of the insurance companies noted above to determine that appropriate
        corrective action has been implemented to address the exceptions noted.
    2)	 Provide increased oversight to ensure specific and consistent documentation of the established
        loss reserve and subsequent adjustment to the loss reserve per claim at the insurance companies
        participating in the NFIP is maintained.




                                                  I.4

                                                                                               Exhibit II

                           STATUS OF PRIOR YEAR OBSERVATIONS

The status of each observation reported in our letter dated November 12, 2010 to the Office of Inspector
General, U.S. Department of Homeland Security, and Acting Administrator, Mitigation Directorate,
Federal Emergency Management Agency, U.S. Department of Homeland Security, is summarized in the
table below. For each repeated observation, we provided the current year Observation Number and
Notice of Findings and Recommendations (NFR) Number.

                                                                            Disposition
        2010                                                                       Repeat (2011
     Observation Description                                         Closed      Observation No./
         No.                                                                         NFR No.)
                   Internal Control Deficiencies Identified
         II.A                                                                     II.A/ FEMA 11-15
                   over Claims Paid

         II.B      Inaccuracies in Claims’ Loss Reserves                          II.B/ FEMA 11-14

                   Internal Control Deficiencies Identified
        III.A                                                          X
                   over Premiums Written

                   Internal Control Deficiencies over the
        III.B                                                          X
                   Retrospective Reserve Analysis

                   Deficiency in the Methodology Used to
        III.C      Calculate the Non-Current Portion of the            X
                   Insurance Liability Estimate




                                                   II.1

                                                                                                    Exhibit III 


                          MANAGEMENT’S RESPONSE



                                                                     u.s. Depntment of Homeland Stturity
                                                                     500 C Street, SW
                                                                     Washington, DC 20472




                                         March 14, 2012


Memorandum For:      Anne Richards
                     Assistant Inspector General for Audits

From:                Edward L. Connor    Z~ ~
                     Deputy Associate Administrator for Federal Insurance
                     Federal Emergency Management Agency

Subject:             Draft Report: NFIP Management Letter for DHS FY 20 11
                     Financial Statement Audit

Thank you for the opportunity to comment on the draft management letter for the DHS FY 20 I I
financial statement audit.

Internal Control Deficiencies Related to Claims

   A. Internal Control Deficiencies Identified over Claims Paid

Management concurs with the recommendation and has initiated follow-up with the WYO
companies on the exceptions noted. The NFlI' wi ll continue to review WYO company claims
handling as part of the ongoing claims operation reviews to ensure compliance with NFIP guidelines
and consistent establishment and reporting of loss reserves and subseq uent adjustments.
Management does not believe that individual claims loss reserves are material to the NF lI' loss
reserving process.

    B.lnaccuracies in Claims' Loss Reserves

Management concurs with the recommendation and has initiated fo llow-up with the WYO
companies on the exceptions noted and wi ll continue to review WYO company claims loss reserving
as part of the ongoing claims operation reviews to ensure consistent establishment and reporting of
loss reserves and subsequent adjustments. Additional emphasis is given to these matters through
Workshops during the National Flood Conference. Management does not believe that individual
claims loss reserves are material to the NFrp loss reserving process.




                                                                     www.fema .gov




                                            III.1

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Federal Emergency Management Agency

                      FEMA Administrator
                      Chief Financial Officer
                      FEMA Audit Liaison
                      Deputy Associate Administrator for Federal Insurance
                      Chief of Risk Insurance

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
